l

No.
In The

Supreme Court of the United States
WILLIAM JOHNSON,
Petitioner
v.
COUNTY OF PAULDING, GEORGIA; BOARD OF
COMMISSIONERS FOR PAULDING COUNTY;
PAULDING COUNTY SHERIFFS DEPARTMENT;
SHERIFF GARY GULLEDGE IN HIS OFFICIAL &
INDIVIDUAL CAPACITY OFFICER “AL”
GONZALEZ IN HIS OFFICIAL & INDIVIDUAL
CAPACITY; And MAJOR SHELIA CRATON IN
HER OFFICIAL & INDIVIDUAL CAPACITY,
Respondents
On Petition For Writ Of Certiorari to the United
States Court Of Appeals for the Eleventh Circuit

APPENDICES FOR PETITION
FOR WRIT OF CERTIORARI

WILLIAM JOHNSON, Pro Se
4783 Burford Court
Acworth, Georgia 30102
(404)488-9168
billacerebecca@gmail.com

la
APPENDIX A
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ROME DIVISION
WILLIAM JOHNSON,
Plaintiff,
V.
COUNTY OF PAULDING,
GEORGIA, BOARD OF
COMMISSIONERS FOR
PAULDING COUNTY,
PAULDING COUNTY
SHERIFF’S DEPARTMENT,
SHERIFF GARY GULLEDGE,
in his official and individual
capacity, OFFICER AL
GONZALEZ, in his official and
individual capacity, AND
MAJOR SHELIA CRATON, in
her official and individual
capacity,

2a
Defendants.
CIVIL ACTION FILE NO.
4:18-CV-0136-HLM
ORDER
Case 4:18-cv-00136-HLM Document 16 Filed 10/31/18
Page 1 of 20
This case is before the Court on the Motion to
Dismiss filed by Defendants Board of Commissioners
for Paulding County ("Defendant Board"), County of
Paulding, Georgia ("Defendant Paulding County"),
Paulding County Sheriffs Department ("Defendant
PCSD"), Defendant Sheriff Gary Gulledge, in his
official capacity ("Defendant Gulledge"), Defendant
Officer A1 Gonzalez, in his official capacity
("Defendant Gonzalez"), and Defendant Major Shelia
Craton, in her official capacity ("Defendant Craton")
[8].

I. Standard of Review for a Motion to Dismiss
Federal Rule of Civil Procedure 12(b)(6) allows
the Court to dismiss a complaint, or portions of a
complaint, for "failure to state a claim upon which
relief can be granted." Fed. R. Civ. P. 12(b)(6). When
reviewing a motion to dismiss, the Court must take
the allegations of the complaint as true and must
construe those allegations in the light most favorable
to the plaintiff. Alvarez v. Att'y Gen. for Fla., 679 F.3d
1257, 1261 (11th Cir. 2012).
Although a court is required to accept wellpleaded facts as true when evaluating a motion to

3a
dismiss, it is not required to accept the plaintiffs legal
conclusions. Chandler v. Sec'y of Fla. Dep't of Transp.,
695 F.3d 1194, 1199 (11th Cir. 2012) (per curiam)
(citing Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)).
The Court also does not accept as true
"unwarranted deductions of factQ or legal conclusions
masquerading as facts." Snow v. DirecTV, Inc., 450
F.3d 1314, 1320 (11th Cir. 2006) (internal quotation
marks and citation omitted). Finally, the Court may
dismiss a complaint if it does not plead "sufficient
factual matter, accepted as true, to state a claim to
relief that is plausible on its face." Simpson v.
Sanderson Farms, Inc., 744 F.3d 702, 708 (11th Cir.
2014) (internal quotation marks omitted) (quoting
Iqbal, 556 U.S, at 678).
In Bell Atlantic Corp. v. Twombly, 550 U.S. 544
(2007), the Supreme Court observed that a complaint
"requires more than labels and conclusions, and a
formulaic recitation of the elements of a cause of
action will not do." 550 U.S. at 555. Although factual
allegations in a complaint need not be detailed, those
allegations "must be enough to raise a right to relief
above the speculative level on the assumption that all
the allegations in the complaint are true (even if
doubtful in fact)." Id.
Moreover, "[a] claim has facial plausibility
when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged." Iqbal,
556 U.S. at 678. The mere possibility that the
defendant might have acted unlawfully is not
sufficient to allow a claim to survive a motion to
dismiss. Id. Instead, the well-pleaded allegations of

4a
the complaint must move the claim "across the line
from conceivable to plausible." Twombly, 550 U.S. at
570.
II. Background
A. Procedural Background
On June 5, 2018, Plaintiff, proceeding pro se,
filed this action. (Compl. (Docket Entry No. 1).)
Plaintiff asserted several claims, including: (1) a First
Amendment claim asserted under 42 U.S.C. § 1983
(id. If 23); (2) a § 1983 Fourth Amendment false arrest
claim (id. J 24); (3) a § 1983 Fifth Amendment due
process claim (id. If 25); (4) a § 1983 Sixth Amendment
due process claimed based on an alleged refusal by
Defendants to permit Plaintiff "to obtain witnesses
and confront accusers at a probable cause hearing" (id.
If 26); (5) a § 1983 Eighth Amendment claim
contending that "Defendants were deliberately
indifferent to the Constitutional and Statutory Rights
of Plaintiff while incarcerated" by keeping Plaintiff
incarcerated over six months "for a misdemeanor
accusation, having set excessive bail so Plaintiff could
not bond out [of] their jail" (id. 11 27); (6) a § 1983
Fourteenth Amendment due process claim based on
Defendants' allegedly keeping Plaintiff incarcerated
"for over six months without presenting him before a
judicial officer for determination of probable cause"
(id. IT 28); (7) a state law claim for intentional
infliction of emotional distress (id. 1f 29); (8) a state
law punitive damages claim (id. IT 30); (9) a state law
claim for "other damages" (id. t 31); and (10) an
attorneys' fees claim (id. f 32).

5a
On September 20, 2018, Defendants filed a
Motion to Dismiss. (Mot. Dismiss (Docket Entry No.
8).) Plaintiff filed a response to the Motion to Dismiss.
(Resp. Mot. Dismiss Docket Entry No. 11).) The
briefing process for that Motion is complete, and the
Court finds that the matter is ripe for resolution.
B. Plaintiff's Allegations
Plaintiff alleges that, on January 28, 2016,*
Defendant Gonzalez, an officer with Defendant PCSD,
arrested Plaintiff "under the color of a Uniform Traffic
Citation, Summons.” Accusation from Defendant
• PSCD. (Compl. f 12.)
According to Plaintiff,
Defendant Gonzalez "did not have probable cause to
[arrest] Plaintiff." (Id. IT 13.) Plaintiff asserts that
Defendant Gonzalez arrested him "based [on] the
testimony of a third party for a traffic violation." (Id.IT
14.)
Plaintiff complains that no Defendant PCSD
agent applied for an arrest warrant for Plaintiff. (Id.
11 15.) Plaintiff further alleges that no Defendant
PCSD agent took him "before a judicial officer to make
a determination of probable cause within a prompt
period after the arrest." (Id IT 16.) Plaintiff contends
that he "needlessly spent over six months in the
Paulding County Jail under the assumed authority of
solely a uniform traffic citation." (Id. IT 17.)
According to Plaintiff, all of the charges
brought against him were dismissed on June 6, 2017. •
(Id. If 18.) Plaintiff claims that, while he was
incarcerated, "Defendants obstructed and interfered
with Plaintiff's attempts to file pleadings in Court."
(Comp!. IT 19.) Plaintiff further alleges that

6a
Defendant Board, Defendant Paulding County,
Defendant PCSD, Defendant Gulledge, and
Defendant Craton are "responsible and liable for
training police officers of [Defendant PCSD] and
Paulding County Jail to comply with State and
Federal Law concerning the rights of individuals
arrest[ed] or detained at the Paulding County Jail."
(Id. f 20.)
Defendants Gulledge, Craton, and Gonzalez
moved to dismiss Plaintiffs § 1983 claims asserted
against them and Defendants Craton, Gonzalez, and
Gulledge also filed a Motion for Summary Judgment
with respect to Plaintiffs claims asserted against
them in their individual capacities. (Mot. Summ. J.
(Docket Entry No. 9).) The Court will address that
Motion in a separate Order.
Plaintiff’s response to the Motion to Dismiss
technically is untimely, as Plaintiff filed the response
more than seventeen days after Defendants filed the
Motion. The Court exercises its discretion to consider
the response as if Plaintiff had filed it in a timely
manner.
Ill. Discussion
A. § 1983 Claims Asserted Against Defendants
Gulledge, Craton, and Gonzalez in Their
Official Capacities Defendants Gulledge, Craton, and
Gonzalez moved to dismiss Plaintiff's § 1983 claims
asserted against them in their official capacities,
arguing that, under Georgia law, a sheriff is
considered an arm of the State and is entitled to
Eleventh Amendment immunity for certain law

7a
enforcement functions. (Br. Supp. Mot. Dismiss
(Docket Entry No. 8-1) at 2-4.)
A suit against a public official in his official
capacity is considered a suit against the entity that
the official represents. Salvato v. Miley, 790 F.3d
1286, 1295 (11th Cir. 2015). "The Eleventh
Amendment protects a State from being sued [for
damages] in federal court without the State's
consent." Manders v. Lee, 338 F.3d 1304, 1308 (11th
Cir. 2003) (en banc). "To receive Eleventh Amendment
immunity, a defendant need not be labeled a 'state
officer' or 'state official,' but instead need only be
acting as an 'arm of the State,' which includes agents
and instrumentalities of the State." Id.
"The amendment applies even when a state is
not named as a party of record, if for all practical
purposes the action is against the state." Kaimowitz
v. Fla. Bar, 996 F.2d 1151, 1155 (11th Cir. 1993). "A
state official may not be sued in his official capacity
unless the state has waived its Eleventh Amendment
immunity ... or Congress has abrogated the state's
immunity." Lancaster v. Monroe Cnty., Ala., 116 F.3d
1419, 1429 (11th Cir. 1997), overruled on other
grounds by LeFrere v. Quezada, 588 F.3d 1317, 1318
(11th Cir. 2009).
The United States Court of Appeals for the
Eleventh Circuit has concluded that a Georgia sheriff
is an arm of the State and is entitled to Eleventh
Amendment immunity from § 1983 liability for certain
law enforcement functions. See Manders v. Lee, 338
F.3d 1304, 1328 (11th Cir. 2003) (en banc) (concluding
that, under Georgia law, a sheriff sued in his official
capacity was an arm of the State, not the county, with

8a
respect to "establishing use-of-force policy at the jail
and in training and disciplining his deputies in that
regard", and was "entitled to Eleventh Amendment
immunity" (footnote omitted)); see also Grech v.
Clayton Cty., Ga., 335 F.3d 1326, 1348, 1366 (11th
Cir. 2003) (en banc) (concluding that, under Georgia
law, "the Clayton County Sheriff is not a county
policymaker under § 1983 for his law enforcement
conduct and policies regarding warrant information
on the CJIS systems or the training and supervision
of his employees in that regard").
Other district courts in this Circuit have
concluded that Eleventh Amendment immunity bars
§ 1983 Fourth Amendment seizure claims asserted
against a sheriff in his official capacity. See Moon v.
Rockdale Cty., 188 F.Supp. 3d 1369, 1378-79 (N.D.
Ga. 2016) (concluding that a sheriff’s department was
an arm of the State and entitled to Eleventh
Amendment immunity for § 1983 official capacity
claims based on violations of the Fourth and
Fourteenth Amendment); Richardson v. Quitman
Cty., Ga., 912 F. Supp. 2d 1354, 1366 (M.D. Ga. 2012)
(finding that a county sheriff and deputies were
entitled to Eleventh Amendment immunity for § 1983
official capacity claims arising from strip searches and
arrests); Farr v. Hall Cty., Ga., Civil Action No. 2:11CV00074-RWS, 2011 WL 5921462, at *6-7 (N.D. Ga.
Nov. 28, 2011) (concluding that a sheriff was an arm
of the State and entitled to Eleventh Amendment
immunity for § 1983 official capacity claims arising
from a search and seizure).
The Court finds those cases persuasive, and
concludes that Eleventh Amendment immunity bars

9a
Plaintiffs § 1983 official capacity claims against
Defendant Gulledge.
The Court finds unpersuasive Plaintiff’s
attempts to distinguish this case from Manders. (See
generally Resp. Mot. Dismiss.) The Court notes that
other courts have concluded that Georgia sheriffs are
entitled to Eleventh Amendment immunity for claims
similar to those asserted in this action. Scruggs v. Lee,
Civil Action No. 7:05-CV-95(HL), 2006 WL 2850427,
at *4-5 (M.D. Ga. Sept. 30, 2006) (finding that a sheriff
was entitled to Eleventh Amendment immunity for
claims relating to allegedly unlawful seizure, search,
arrest, and detention), affd, 256 F. App'x 229 (11th
Cir. 2007); Young v. Graham, No. CV 304-066, 2005
WL 2237634, at *7 (S.D. Ga. Aug. 11, 2005)
(concluding that Eleventh Amendment immunity
applied to a sheriff with respect to Defendants Craton
and Gonzalez in their official capacities. See Scruggs
v. Lee, 256 F. App'x 229, 232 (11th Cir. 2007) (finding
that sheriffs deputies, as employees of the sheriff,
"are also entitled to Eleventh Amendment immunity"
with respect to § 1983 claims asserted against them in
their official capacities).
In sum, Eleventh Amendment immunity bars
Plaintiffs § 1983 claims asserted against Defendants
Gulledge, Craton, and Gonzalez in their official
capacities. The Court therefore grants the Motion to
Dismiss as to those claims.
B. § 1983 Claims Against Defendants Paulding
County and Board Defendants Paulding
County and Board argue that they cannot be held
liable under § 1983 for the actions of "establishing and

10a
implementing policy and procedure respecting
pretrial detention and conditions of confinement").
Plaintiff concedes that Defendants Paulding County
and Board are not liable under § 1983 for Defendants'
actions. (Resp. Mot. Dismiss at 3.)4 The Court
therefore grants this portion of the Motion to Dismiss.
C. State Law Claims
In any event, Defendants are correct that
Defendants Paulding County and Board have no
liability under § 1983 for the actions of the sheriffs
office and its employees. Alternatively, Plaintiffs
claims against Defendants Board and PCSD fail
because Defendants Board and PCSD are not legal
entities subject to suit. See Dean v. Barber, 951 F.2d
1210, 1214 (11th Cir. 1992) ("Sheriffs departments
and police departments are not usually considered
legal entities subject to suit"); Johnson v. Fulton Cty.
Bd. of Comm'rs, Civil Action No. 1.07-CV-02663RWS-RGV, 2008 WL 11334451, at *1 (N.D. Ga. May
13, 2008) (observing that county commissions "are not
generally considered legal entities subject to suit"
(internal quotation marks and citation omitted)),
report and recommendation adopted, 2008 WL
11336376 (N.D. Ga. June 17, 2008). Error! Main
Document Only.
Defendants also argue that sovereign immunity
bars Plaintiffs state law claims asserted against
Defendant Paulding County and Defendants
Gulledge, Craton, and Gonzalez in their official
capacities. For the following reasons, the Court
agrees.

11a
The Georgia Supreme Court has noted: The
common law doctrine of sovereign immunity, adopted
by this state in 1784, protected governments at all
levels from unconsented-to legal actions. The doctrine
was given constitutional status in 1974, but the state
remained absolutely immune from suit until 1983
after voters approved an amendment to the State
Constitution waiving the sovereign immunity of the
"state or any of its departments and agencies" in
actions for which liability insurance protection was
provided. In 1991, the constitutional doctrine of
sovereign immunity was amended to extend sovereign
immunity "to the state and all of its departments and
agencies," and Plaintiff did not explicitly respond to
these arguments relating to his state law claims. (See
generally Resp. Mot. Dismiss.)
Plaintiff simply stated: "State Law Claims may
be reviewed in conjunction with Federal Law Claims."
(Id. this immunity is to prevail except as specifically
provided therein.) Gilbert v. Richardson, 264 Ga. 744,
745-76, 452 S.E.2d 476, 478 (1994) (citations and
footnotes omitted). "The sovereign immunity of the
state and its departments and agencies can only be
waived by an Act of the General Assembly which
specifically provides that sovereign immunity is
thereby waived and the extent of such waiver." Ga.
Const, of 1983, Art. I, § 2, If IX(e). "Sovereign
immunity ... is not an affirmative defense, going to
the merits of the case, but raises the issue of the trial
court's subject matter jurisdiction to try the case."
Dep't of Transp. v. Dupree, 256 Ga. App. 668, 671, 570
S.E.2d 1, 5 (2002). "[A]ny waiver [of sovereign
immunity] must be established by the party
bene fitting from such waiver." Maxwell v. Cronan,

12a
241 Ga. App. 491, 492, 527 S.E.2d 1, 2 (1999) (citation
omitted). "The doctrine of sovereign immunity also
applies to counties." Russell v. Barrett, 296 Ga. App.
114, 120, 673 S.E.2d 623, 628 (2009).
In 1992, the Georgia General Assembly enacted
the Georgia Tort Claims Act (the "GTCA"), which is
codified at O.C.G.A. § 50-21-20, et seq. and which
waives the State's sovereign immunity for the torts of
its officers or employees. Gilbert, 264 Ga. at 747, 452
S.E.2d at 479. The GTCA, however, "expressly
excludes counties from the ambit of this waiver." Id.;
see also O.C.G.A. § 50-21-22(5) (excluding counties
from definition of "state" for purposes of GTCA);
Currid v. DeKalb State Court Probation Dep't, 285 Ga.
184, 188, 674 S.E.2d 894, 897 (2009) ("The waiver of
sovereign immunity contained in the [GTCA] does not
apply to counties."). Thus, the GTCA does not waive
Defendant Paulding County's sovereign immunity.
Admittedly, O.C.G.A. § 33-24-51 waives
sovereign immunity for certain claims against
counties or municipalities arising from use of insured
motor vehicles. O.C.G.A. § 33-24- 51. Plaintiffs claims,
however, do not arise from the use of a motor vehicle.
Plaintiff also has not come forth with allegations
showing that Defendant Paulding County waived its
sovereign immunity by purchasing other insurance.
Under those circumstances, Plaintiff has not
successfully alleged that Defendant Paulding County
waived its sovereign immunity, and sovereign
immunity bars Plaintiffs state law claims against
Defendant Paulding County. Similarly, sovereign
immunity bars Plaintiff's state law claims against the

13a
individual Defendants in their official capacities.
Marshall v. McIntosh Cty., 327 Ga. App. 416, 419, 759
S.E.2d 269, 273 (2014). The Court therefore grants
this portion of the Motion to Dismiss.
IV. Conclusion
ACCORDINGLY, the Court GRANTS the Motion to
Dismiss [8], and DISMISSES Plaintiffs claims
against Defendants Board, Paulding County, and
PCSD, as well as Plaintiffs official capacity claims
against Defendants Gulledge, Gonzalez, and Craton.
IT IS SO ORDERED, this the day of October, 2018.
SENIOR UNITED STATES DISRICT JUDGE

14a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ROME DIVISION
WILLIAM JOHNSON,
Plaintiff,
V.
COUNTY OF PAULDING,
GEORGIA, BOARD OF
COMMISSIONERS FOR
PAULDING COUNTY,
PAULDING COUNTY
SHERIFF’S DEPARTMENT
SHERIFF GARY GULLEDGE,
in his official and individual
capacity, OFFICER AL
GONZALEZ, in his official and
individual capacity, AND
MAJOR SHELIA CRATON, in
her official and individual

15a
capacity,
Defendants.
CIVIL ACTION FILE NO.
4:18-CV-0136-HLM
ORDER
Case 4:18-cv-00136-HLM Document 17 Filed 10/31/18
Page 1 of 28
This case is before the Court on the Motion for
Summary Judgment filed by Defendants Sheriff Gary
Gulledge ("Defendant Gulledge"), Officer A1 Gonzalez
("Defendant Gonzalez"), and Major Shelia Craton
("Defendant Craton") [9].
I. Background
A. Factual Background
Keeping in mind that, when deciding a motion
for summary judgment, the Court must view the
evidence and all factual inferences in the light most
favorable to the party opposing the motion, the Court
provides the following statement of facts. Strickland
v. Norfolk S. Ry. Co., 692 F.3d 1151, 1154 (11th Cir.
2012). This statement does not represent actual
findings of fact. Rich v. Sec'y, Fla. Dep't of Corr., 716
F.3d 525, 530 (11th Cir. 2013). Instead, the Court has
provided the statement simply to place the Court's
legal analysis in the context of this particular case or
controversy.
1. Initial Matters

16a
As required by the Local Rules, Defendants
Gulledge, Craton, and Gonzalez, as movants, filed a
Statement of Material Facts ("DSMF"). (DSMF
(Docket Entry No. 9-3).) As also required by the Local
Rules, Plaintiff filed a response to DSMF
("PRDSMF"). (PRDSMF (Docket Entry No. 13).)
Plaintiff, however, provided no citations to support his
denials of DSMF, and the Court deems the statements
in DSMF admitted to the extent that they are
supported by evidence. See N.D. Ga. R. 56.1B(2)a.(2)
("This Court will deem each of the movant's facts as
admitted unless the respondent: (i) directly refutes
the movant's fact with concise responses supported by
specific citations to evidence (including page or
paragraph number)."); see also Reese v. Herbert, 527
F.3d I Even pro se litigants must comply with the
Local Rules. See Moss v. City of Atlanta Fire Dep't,
Civil Action File No. 1:14-CV3 1253, 1269 (11th Cir.
2008) (explaining that, after the court deems a
statement of undisputed facts admitted, it must
review the citations to the record to determine
whether there really is no genuine issue of material
fact). The Court evaluates DSMF infra.
2. Plaintiffs Allegations
Plaintiff alleges that, on January 28, 2016,
Defendant Gonzalez, an officer with Defendant PCSD,
arrested Plaintiff "under the color of a Uniform Traffic
Citation, Summons, and Accusation" from Defendant
PSCD. (Compl. (Docket Entry No. 1) IT 12.) According
to Plaintiff, Defendant Gonzalez "did not have
probable cause to [arrest] Plaintiff." (Id. II 13.)
Plaintiff asserts that Defendant Gonzalez arrested
him "based [on] the testimony of a third party for a

17a
traffic violation." (Id. f 14.) Plaintiff complains that no
Defendant PCSD agent applied for an arrest warrant
for Plaintiff. (Id. II 15.) Plaintiff further alleges that
no Defendant PCSD agent took him "before a judicial
officer to make a determination of probable cause
within a prompt period after the arrest." (Id. IT 16.)
Plaintiff contends that he "needlessly spent
over six months in the Paulding County Jail under the
assumed authority of solely a uniform traffic citation."
(Id. 1117.) According to Plaintiff, all of the charges
brought against him were dismissed on June 6, 2017.

ad. n is.)

Plaintiff claims that, while he was
incarcerated, "Defendants obstructed and interfered
with Plaintiffs attempts to file pleadings in Court."
(Compl. f 19.) Plaintiff further alleges that Defendant
Board, Defendant Paulding County, Defendant PCSD,
Defendant Gulledge, and Defendant Craton are
"responsible and liable for training police officers of
[Defendant PCSD] and Paulding County Jail to
comply with State and Federal Law concerning the
rights of individuals arrest[ed] or detained at the
Paulding County Jail." (Id. 1 20.)
3. Factual Matters
On January 28, 2016, Plaintiff was arrested for
driving under the influence ("DUI"). (Compl. IT 12.)
On January 29, 2016, a judge issued a warrant for
Plaintiffs arrest based on a violation of probation.
(Docket Entry No. 9-1.) The warrant stated that
Defendant had violated "condition #1: Do not violate
the criminal laws of any governmental unit," and
noted, "DEFENDANT COMMITTED THE OFFENSE

i

18a
OF DUI ON OR ABOUT 01/28/16 IN PAULDING
COUNTY, GEORGIA." (Id. at 1 (capitalization in
original).) Thus, the arrest warrant for probation
violation was based on the January 28, 2016 DUI
incident.
In September 2016, Plaintiff entered into a
consent order in the Superior Court of Spalding
County, Georgia revoking his probation. (Docket
Entry No. 9-2 at 1-2.) The consent order stated:
"REVOKE 11 MONTHS TO THE COUNTY JAIL.
TERMINATE REMAINING BALANCE CREDIT
FOR TIME SERVED SINCE 01/28/16." (Id. at 1
(capitalization in original).)
B. Procedural Background

*

On June 5, 2018, Plaintiff, proceeding pro se,
filed this action. (Docket Entry No. 1.) Plaintiff
asserted several claims, including: (1) a First
Amendment claim asserted under 42 U.S.C. § 1983
(Compl. 23); (2) a § 1983 Fourth Amendment false
arrest claim (id. f 24); (3) a § 1983 Fifth Amendment
due process claim (id. f 25); (4) a § 1983 Sixth
Amendment due process claimed based on an alleged
refusal by Defendants to permit Plaintiff "to obtain
witnesses and confront accusers at a probable cause
hearing" (id. f 26); (5) a § 1983 Eighth Amendment
claim contending that "Defendants were deliberately
indifferent to the Constitutional and Statutory Rights
of Plaintiff while incarcerated" by keeping Plaintiff
incarcerated over six months "for a misdemeanor
accusation, having set excessive bail so Plaintiff could
not bond out [of] their jail" (id. II 27); (6) a § 1983
Fourteenth Amendment due process claim based on
Defendants' allegedly keeping Plaintiff incarcerated

19a
"for over six months without presenting him before a
judicial officer for determination of probable cause"
(id. If 28); (7) a state law claim for intentional
infliction of emotional distress (id. IR 29); (8) a state
law punitive damages claim (id. IR 30); (9) a state law
claim for "other damages" (id. ^ 31); and (10) an
attorneys' fees claim (id. 1 32).
On September 20, 2018, Defendants Gulledge,
Craton, and Gonzalez filed their Motion for Summary
Judgment. (Mot. Summ. J. (Docket Entry No. 9).)2
The briefing process for that Motion is complete, and
the Court finds that the matter is ripe for resolution.
C. Summary Judgment Standard
Federal Rule of Civil Procedure 56(a) allows a
court to grant summary judgment when "there is no
genuine dispute as to any material fact and the
movant is entitled to a judgment as a matter of law."
Fed. R. Civ. P. 56(a). The party seeking summary
judgment bears the initial burden of showing the
Court that summary judgment is appropriate and
may satisfy this burden by pointing to materials in the
record. Jones v. UPS Ground Freight, 683 F.3d 1283,
1292 (11th Cir. 2012). Once the moving party has
supported its motion adequately, the burden shifts to
the non-movant to rebut that showing by coming
forward with specific evidence that demonstrates the
existence of a genuine issue for trial. Id.
When evaluating a motion for summary
judgment, the Court must view the evidence and draw
all reasonable factual inferences in the fight most
favorable to the party opposing the motion. Morton v.
Kirkwood, 707 F.3d 1276, 1280 (11th Cir. 2013);

20a
Strickland, 692 F.3d at 1154. The Court also must
"resolve all reasonable doubts about the facts in favor
of the non-movant." Morton, 707 F.3d at 1 (internal
quotation marks and citations omitted). Further, the
Court may not make credibility determinations, weigh
conflicting evidence to resolve disputed factual issues,
or assess the quality of the evidence presented.
Strickland, 692 F.3d at 1154. Finally, the Court does
not make factual determinations. Rich, 716 F.3d at
530.
III. Discussion
A. § 1983 Claims
1. Statute of Limitations
Defendants Gulledge, Craton, and Gonzalez
first argue that the statute of limitations bars
Plaintiffs § 1983 Fourth Amendment false arrest
claim, as well as his Fourth Amendment claim based
on an alleged lack of a judicial probable cause
determination. A two-year statute of limitations
governs § 1983 claims in Georgia. Jones v. Union City,
450 F. App'x 807, 808-09 (11th Cir. 2011) (per curiam).
"[T]he statute of limitations for § 1983 claims
begins to run when facts supporting the cause of
action are or should be reasonably apparent to the
claimant." Id. at 809. A Fourth Amendment false
arrest claim accrues at the time of arrest. Id.; Parrish
v. City of Opp, Ala., 898 F. Supp. 839, 842-43 (M.D.
Ala. 1995).
A Fourth Amendment claim alleging that a
plaintiff was detained without a judicial probable
cause determination, or a "McLaughlin claim,"

21a
accrues after fortyeight hours from the arrest. See
County of Riverside v. McLaughlin, 500 U.S. 44, 56-57
(1991) (establishing a fortyeight-hour rule for
probable cause determinations); Mullinax v.
McElhenney, 817 F.2d 711, 716 (11th Cir. 1987)
(noting that a § 1983 action will accrue when "the
plaintiff knows or has reason to know that he has been
injured").
Here, Plaintiffs arrest occurred on January 28,
2016, and his § 1983 false arrest claim accrued on that
date. Plaintiffs McLaughlin claim accrued forty-eight
hours later. Plaintiff, however, did not file this lawsuit
until June 5, 2018, more than two years after his
claims accrued. Plaintiffs § 1983 Fourth Amendment
false arrest and McLaughlin claims are therefore
time-barred. To support his contention that his false
arrest and McLaughlin claims are timely, Plaintiff
relies on Manuel v. City of Joliet, III., 137 S. Ct. 911
(2017). Manuel, however, does not help Plaintiff.
First, that case did not involve a McLaughlin claim.
Second, the Supreme Court did not rule on when the
claim in that case accrued. See Manuel, 137 S. Ct. at
922 (leaving consideration of when the claim in the
case accrued to the court of appeals).
2. False Arrest Claim
Defendants Gulledge, Craton, and Gonzalez
also argue that Heck v. Humphrey, 512 U.S. 477
(1994), bars Plaintiffs § 1983 false arrest claim. (Br.
Supp. Mot. Summ. J. at 3-5.) In Heck, the Supreme
Court held that: when a state prisoner seeks damages
in a § 1983 suit, the district court must consider
whether a judgment in favor of the plaintiff would
necessarily imply the invalidity of his conviction or

22a
sentence; if it would, the complaint must be dismissed
unless the plaintiff can demonstrate that the
conviction or sentence has already been invalidated.
512 U.S. at 487.
The Supreme Court gave the following example
of a § 1983 suit that would be barred: A state
defendant is convicted of and sentenced for the crime
of resisting arrest, defined as intentionally preventing
a peace officer from effecting a lawful arrest. . . He
then brings a § 1983 action against the arresting
officer seeking damages for violation of his Fourth
Amendment right to be free from unreasonable
seizures. In order to prevail in this § 1983 action, he
would have to negate an element of the offense of
which he has been convicted. Regardless of the state
law concerning res judicata the § 1983 action will not
lie. Id. at 486 n.6 (citations omitted).
The Eleventh Circuit follows a similar rule, and
it has observed that "as long as it is possible that a §
1983 suit would not negate the underlying conviction,
then the suit is not Heckbarred." Dyer v. Lee, 488 F.3d
876, 879-80 (11th Cir. 2007).
Instead, "for Heck to apply, it must be the case
that a successful § 1983 suit and the underlying
conviction be logically contradictory." Id. at 884. "So
long as 'there would still exist a construction of the
facts that would allow the underlying [punishment] to
stand,' a § 1983 suit may proceed." Dixon, 887 F.3d at
1238 (quoting Dyer, 488 F.3d at 880).
Here, Plaintiff was convicted for a probation
violation, which, in turn, was based on the DUI
incident that occurred on January 28, 2016. (Docket

23a
Entry No. 9-2.) A successful § 1983 false arrest claim
here would invalidate the basis for Plaintiffs
probation violation, as Plaintiff argues that no
probable cause existed to arrest him for DUI based on
the January 28, 2016 incident. Heck therefore bars
this claim. See Cobb v. Fla., 293 F. App'x 708, 709
(11th Cir. 2008) (per curiam) (concluding that the
district court correctly dismissed a plaintiffs § 1983
action under Heck "because the necessary implication
of a grant of relief would be that [the plaintiffs]
probation revocation is invalid").
3. McLaughlin Claim
Defendants Gulledge, Craton, and Gonzalez
next argue that the probation violation warrant bars
Plaintiffs McLaughlin claim. On January 28, 2016,
Plaintiff was arrested for DUI. On the following day,
January 29, 2016, a judge issued an arrest warrant for
Plaintiff based on probable cause that the January 28,
2016 DUI incident violated Plaintiffs probation.
(Docket Entry No. 9-1).)
The Court agrees with Defendants Gulledge,
Craton, and Gonzalez that the issuance of the
probation arrest warrant satisfied the Fourth
Amendment's requirement for a judicial probable
cause determination to justify incarceration lasting
more than forty-eight hours. See Gerstein v. Pugh,
420 U.S. 103, 126 (1975) (noting "that the Fourth
Amendment requires a timely judicial determination
of probable cause as a prerequisite to detention," but
disagreeing that an adversary hearing was required").
4. First Amendment Claim

24a
Plaintiff also asserts a § 1983 First Amendment claim
for denial of access to the courts. Plaintiff did not
specifically respond to Defendants' arguments
concerning that claim, and he has abandoned the
claim. See Burnette v. Northside Hosp., 342 F. Supp.
2d 1128, 1140 (N.D. Ga. 2004) ("Failure to respond to
the opposing party's summary judgment arguments
regarding a claim constitutes an abandonment of that
claim and warrants the entry of summary judgment
for the opposing party.").
Alternatively, Plaintiff's denial of access to the
courts claim fails on its merits. "It is now clearly
established that prisoners have a constitutional right
of access to the courts." Barbour v. Haley, 471 F.3d
1222, 1225 (11th Cir. 2006). "That access must be
adequate, effective, and meaningful." Cunningham v.
District Atty's Office for Escambia Cty., 592 F.3d
1237, 1271 (11th Cir. 2010) (internal quotation marks
and citation omitted).
Further, "to assert a claim arising from the
denial of meaningful access to the courts, an inmate
must first establish an actual injury." Barbour, 471
F.3d at 1225. "Actual injury may be established by
demonstrating that an inmate's efforts to pursue a
nonfrivolous claim were frustrated or impeded by a
deficiency in the prison library or in a legal assistance
program or by an official's action." Id.
A plaintiff asserting a claim for denial of access
to the courts "must identify a nonfrivolous, arguable
underlying claim." Christopher v. Harbury, 536 U.S.
403, 415 (2002) (internal quotation marks and citation
omitted). "[T]he underlying cause of action, whether
anticipated or lost, is an element that must be

25a
described in the complaint, just as much as allegations
must describe the official acts frustrating the
litigation." Christopher, 536 U.S. at 415; see also
Cunningham, 592 F.3d at 1271 ("The allegations
about the underlying cause of action must be specific
enough to give fair notice to the defendants and must
be described well enough to apply the nonfrivolous
test and to show that the arguable nature of the
underlying claim is more than hope." (internal
quotation marks and citation omitted)).
Plaintiffs Complaint simply alleges that
"Defendants interfered with Plaintiffs efforts to file
Court pleadings." This allegation is insufficient to
state a viable denial of access to the courts claim.
Specifically, Plaintiff failed to: (1) identify the nature
of the substance of the litigation in which he wanted
to file court papers; (2) indicate whether that litigation
was non-frivolous; (3) specify the conduct by any
named Defendant that allegedly interfered with that
access; or (4) allege that there was some adverse
consequence directly associated with a named
Defendant's alleged interference with an attempted
filing.
Plaintiff’s attempt to cite to his earlier habeas
action does nothing to warrant a different result. The
Complaint therefore does not state a viable denial of
access to the courts claim, and the Court grants the
Motion for Summary Judgment as to that claim.
5. Fifth Amendment Claim
Plaintiff failed to respond to Defendants'
arguments concerning his Fifth Amendment due
process claim, and he therefore abandoned the claim.

26a
Burnette, 342 F. Supp. 2d at 1140. Alternatively, this
claim fails as a matter of law because Defendants are
not federal actors. See Weiland v. Palm Beach Cty.
Sheriffs Office, 792 F.3d 1313, 1328 (11th Cir. 2015)
(noting that "[t]he Fifth Amendment is out because it
protects a citizen's rights against infringement by the
federal government, not by state government"). The
Court therefore grants the Motion for Summary
Judgment as to that claim.
6. Sixth Amendment Claim
Plaintiff also asserts a Sixth Amendment claim,
alleging that he "was not allowed, by the Defendants
to obtain witnesses and confront accusers at a
probable cause hearing." (Compl. IT 26.) Plaintiff
failed to respond Defendants' arguments concerning
this claim, and he therefore abandoned the claim.
Burnette, 342 F. Supp. 2d at 1140.
Alternatively, this claim fails on its merits.
First, Plaintiff alleges that he did not receive a
probable cause hearing. (Id. IT 16.) Plaintiff cannot
claim that he was deprived of his right to present
witnesses and confront accusers at a non-existent
hearing. Second, Plaintiff had no right to an adversary
probable cause hearing. Gerstein, 420 U.S. at 120.
Third, the Complaint fails to allege plausible facts to
show that the individual Defendants played any role
in the hearing. Plaintiff’s Sixth Amendment claim
therefore fails, and the Court grants the Motion for
Summary Judgment as to that claim.
7. Eighth Amendment Excessive Bail Claim

27a
Plaintiff further alleges that his bail was
excessive. (Compl. IT 27.) Plaintiff contends that
"Defendants incarcerated Plaintiff for over six
month[s] pre-trial for a misdemeanor accusation,
having set excessive bail so Plaintiff could not bond
out of jail." (Id.) Plaintiff failed to respond to
Defendants' arguments concerning this claim, and he
therefore abandoned the claim. Burnette, 342 F. Supp.
2d at 1140.
Alternatively, the claim fails on its merits
because Plaintiff offered nothing other than a
conclusory allegation to show that Defendants caused
his excessive bail. See Rey v. Abrams, No. 7:14-CV02205-RDP, 2015 WL 3839908, at *22 (N.D. Ala. June
22, 2015) ("Plaintiffs Eighth Amendment excessive
bail claim necessarily fails because Plaintiff has
offered nothing more than a conclusory statement
that Defendants caused his excessive bail. As it
relates to Plaintiffs Eighth Amendment excessive bail
claim, Plaintiffs pleadings contain nothing more than
a recitation of one of the elements of a cause of action
(i.e., causation), and therefore the pleadings plainly
fail to meet Rule 8 standards .... Plaintiff does not
plead a factual predicate demonstrating that
theDefendant Officers in anyway influenced any
judicial officer's independent judgment in setting his
bail." (internal quotation marks and citations
omitted)). The Court therefore grants this portion of
Defendants' Motion for Summary Judgment.
8. Fourteenth Amendment Due Process Claim
Plaintiff also asserts a due process claim under
the Fourteenth Amendment, alleging that "[Of
Plaintiffs allegations are proven, it would be

28a
impossible not to be shocked by the defendants'
actions." (Compll 28.) Plaintiff failed to respond to
Defendants' arguments concerning this claim, and he
therefore abandoned the claim. Burnette, 342 F. Supp.
2d at 1140.
Alternatively, the claim fails on its merits. The
Complaint's allegations relate to Plaintiffs claims for
false arrest, improper detention, alleged denial of a
hearing, denial of access to the courts, and excessive
bail. The Fourteenth Amendment due process claim is
simply a reiteration of Plaintiffs other claims, which
are covered under other constitutional provisions.
Under those circumstances, Plaintiffs Fourteenth
Amendment due process claim is duplicative. See
Albright v. Oliver, 510 U.S. 266, 273 (1994) ("Where a
particular Amendment provides an explicit textual
source of constitutional protection against a particular
sort of government behavior, that Amendment, not
the more generalized notion of substantive due
process, must be the guide for analyzing these claims."
(internal quotation marks and citation omitted));
Sims v. Glover, 84 F. Supp. 2d 1273, 1287-88 (M.D.
Ala. 1999) (dismissing a substantive due process claim
because it was "redundant of the rights guaranteed by
the more specific text of the Fourth Amendment").
Plaintiffs Fourteenth Amendment substantive due
process claim therefore fails as a matter of law, and
the Court grants the Motion for Summary Judgment
as to that claim.
9. Summary
In sum, the Court concludes that all of Plaintiffs §
1983 claims fail as a matter of law. Given this
conclusion, the Court need not, and does not,

29a
address qualified immunity. The Court therefore
grants the Motion for Summary Judgment as to those
claims.
To the extent that Plaintiff seeks punitive
damages under § 1983 or attorneys' fees under 42
U.S.C. § 1988, those claims fail in the absence of any,
viable underlying claim. See Estes v. Tuscaloosa Cty.,
Ala 696 F.2d 898, 901 (11th Cir. 1983) ("Section 1988
authorizes attorney's fees as part of a remedy for
violations of civil rights statutes; it does not create an
independent right of action."); Lipsdomb v. Cronic,
Civil Action No. 2:ll-CV-78- RWS, 2011 WL 6755198,
at *13 (N.D. Ga. Dec. 22, 2011) (dismissing a punitive
damages claim as derivative of the plaintiff’s tort
claim); Schudmak v. Bossetta, No. Civ. A. 05-5194,
2006 WL 151928, at *2 (E.D. La. Jan. 19, 2006)
(observing that a § 1983 punitive damages claim was
derivative of the underlying § 1983 takings claim).
B. State Law Claims
Plaintiff’s Complaint also fails to state viable
state law claims against Defendants in their
individual capacities. First, Plaintiff’s claim for
intentional infliction of emotional distress is simply a
recitation of the elements of that cause of action,
which is not sufficient to state a viable claim for relief.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Second, Plaintiff's claims for attorneys' fees and
punitive damages fail in the absence of any viable
underlying claim. See D.G. Jenkins Homes, Inc. v.
Wood, 261 Ga. App. 322, 325, 582 S.E.2d 478, 482
(2003) ("The derivative claims of attorney's fees and
punitive damages will not lie in the absence of a

30a
finding of compensatory damages on an underlying
claim.")- The Court therefore concludes that summary
judgment is appropriate on Plaintiff’s state law
claims.
IV. Conclusion
ACCORDINGLY, the Court GRANTS the
Motion for Summary Judgment [9], and DISMISSES
Plaintiff's claims against Defendants Gulledge,
Gonzalez, and Craton. As this Order resolves all of
Plaintiff’s remaining claims, the Court DIRECTS the
Clerk to CLOSE this case.
IT IS SO ORDERED, this the day of October, 2018.

SENIOR UNITED STATES' DISTRICT JUDGE

31a
APPENDIX C
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-14994
Non-Argument Calendar
D.C. Docket No. 4:18-cv-00136-HLM
WILLIAM JOHNSON,
Plaintiff-Appellant,
versus
COUNTY OF PAULDING, GEORGIA,
BOARD OF COMMISSIONERS FOR PAULDING
COUNTY,
PAULDING COUNTY SHERIFF'S DEPARTMENT,
SHERIFF GARY GULLEDGE,
in his official and individual capacity,
OFFICER AL GONZALEZ,
in his official and individual capacity,
MAJOR SHELIA CRATON,
in her official and individual capacity,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of Georgia
(July 12, 2019)
Case: 18-14994 Date Filed: 07/12/2019 Page: 1 of 7
2

Before MARCUS, BRANCH and GRANT, Circuit
Judges.
PER CURIAM:

32a
William Johnson, proceeding pro se, appeals
the district court’s orders granting the defendants’
motion to dismiss and motion for summary judgment
dismissing his ten-count § 1983 complaint, which
sought relief for violations of his First, Fourth, Fifth,
Sixth, Eighth, and Fourteenth Amendment rights for
being illegally arrested without probable cause,
jailed, and charged with crimes he did not
commit.
On appeal, Johnson argues that: (1) his false
arrest claim and McLaughlin claim were not barred
by the statute of limitations because the limitations
period began to run after he was released from pre­
trial custody (Cty. of Riverside v. McLaughlin, 500
U.S. 44 (1991) (requiring a judicial probable cause
hearing within 48 hours of arrest)).; (2) his false
arrest claim was not barred by Heck v. Humphrey,
512 U.S. 477 (1994); (3) a judicial officer never made
a probable cause determination for his probation
warrant, for purposes of his McLaughlin claim; and
(4) his First Amendment claim is documented in the
trial court pleadings and his habeas corpus action.
After careful review, we affirm.
We review summary judgment decisions de
novo, viewing the facts and inferences in the light
most favorable to the non-moving party. United
States v. One Piece of Real Prop. Located at 5800 SW
74th Ave., Miami, Fla., 363 F.3d 1099, 1101 (11th
Cir. 2004). Summary judgment should be granted
only if “there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a).
Once the movant satisfies its initial burden of
demonstrating the absence of a genuine issue of
material fact, the burden shifts to the nonmovant to

33a
“come forward with specific facts showing that there
is a genuine issue for trial.” Allen v. Tyson Foods,
Inc., 121 F.3d 642, 646 (11th Cir. 1997)
(quotation omitted). “A mere scintilla of evidence
supporting the [nonmoving] party’s position will not
suffice.” Id. (quotation omitted).
We will not consider an issue not raised in the
district court and raised for the first time on appeal.
See Access Now, Inc. v. Sw. Airlines Co., 385 F.3d
1324, 1331 (11th Cir. 2004). In addition, “the law is
by now well settled in this Circuit that a legal claim
or argument that has not been briefed before the
court is deemed abandoned and its merits will not be
addressed.” Id. at 1330; Mesa Air Grp., Inc. v.
Delta Air Lines, Inc., 573 F.3d 1124, 1130 n.7 (11th
Cir. 2009) (holding that an argument not made in the
initial brief is waived).
First, we are unpersuaded by Johnson’s claim
that the district court erred in granting summary
judgment as to Johnson’s false arrest and
McLaughlin claims on statute-of-limitations grounds.
All constitutional claims brought under 42 U.S.C. §
1983 are subject to the statute of limitations
governing personal injury actions in the state where
the § 1983 action has been brought. Powell v.
Thomas, 643 F.3d 1300, 1303 (11th Cir. 2011). In
Georgia, actions for injuries to the person shall be
brought within two years after the right of action
accrues. Ga. Code § 9-3-33 (2010). The
statute of limitations for claims brought under §
1983 begins to run when facts supporting the cause
of action are or should be reasonably apparent to the
claimant. Brown v. Ga. Bd. of Pardons & Paroles,
335 F.3d 1259, 1261 (11th Cir. 2003) (per
curiam).

34a
Fourth Amendment false arrest claims
brought pursuant to § 1983 accrue when the
claimant is detained pursuant to a legal process, not
later upon his release from custody. Wallace v. Kato,
549 U.S. 384, 389-91 (2007). Additionally, the
Fourth Amendment requires that judicial
determinations of probable cause must be
conducted within 48 hours of a warrantless arrest.
McLaughlin, 500 U.S. at 56.
Here, Johnson alleged that he was falsely
arrested for driving under the influence (“DUI”) on
January 28, 2016. This means that Johnson would
have been detained by legal process on January 28,
2016, and that it would have been apparent to him
that he potentially had a false arrest claim on
January 28, 2016. See Kato, 549 U.S. at 391; Brown,
335 F.3d at 1261. Because Johnson did not bring this
action until June 5, 2018, his false arrest claim was
raised outside of the two-year statute of
limitations. See Ga. Code § 9-3-33 (2010).
As for his McLaughlin claim, the case law
provides that if Johnson was arrested without a
warrant, then he was entitled to a judicial probable
cause determination within 48 hours of his arrest.
See McLaughlin, 500 U.S. at 56. Since he was
arrested on January 28, 2016, it would have been
apparent to Johnson that he potentially had a
McLaughlin claim on January 30, 2016. Because
Johnson did not bring this action until June 5, 2018,
his McLaughlin claim also was raised outside of
the two-year statute of limitations. See Ga. Code § 93-33 (2010). Thus, the district
court did not err in holding that the statute of
limitations barred both of these claims.

35a
Nor do we find any merit to Johnson’s
argument that the district court erred in rejecting his
First Amendment claim. “It is now clearly
established that prisoners have a constitutional right
of access to the courts,” which requires prison
authorities to assist inmates in the preparation and
filing of meaningful legal papers by providing
adequate law libraries or adequate assistance from
persons trained in the law. Barbour v. Haley, 471
F.3d 1222, 1225 (11th Cir. 2006) (citation omitted).
To assert an access-to-the-courts claim, an
inmate must first establish an actual injury. Lewis v.
Casey, 518 U.S. 343, 348-49 (1996). “At the summary
judgment stage, general factual allegations of injury
will not suffice; rather, the plaintiff must set forth by
affidavit or other evidence specific facts, which for
purposes of the summary judgment motion will be
taken to be true.” Barbour, 471 F.3d at 1225
(quotations omitted).
Further, a party’s appellate brief may not
incorporate by reference arguments made in other
pleadings so as to have us “ferret out and review any
and all arguments,” to assess which ones may have
merit. Four Seasons Hotels & Resorts, B.V. v.
Consorcio Barr S.A., 377 F.3d 1164, 1167, n.4 (11th
Cir. 2004) (holding that mere citation to and
incorporation of documents filed in the district
court does not comply with the various Federal Rules
of Appellate Procedure).
Here, Johnson’s pleadings in the district court
and this Court are insufficient to maintain his First
Amendment claim. Our case law is clear that at the
summary judgment stage, “the plaintiff must set
forth by affidavit or other evidence specific facts,
which for purposes of the summary judgment motion

36a
will he taken to be true,” Barbour, 471 F.3dat 1225
(quotations omitted), and if the plaintiff “come [s]
forward with specific facts showing that there is a
genuine issue for trial,” summary judgment
should be denied. Allen, 121 F.3d at 646 (quotation
omitted).
As the record reflects, Johnson responded to
the defendants’ summary judgment arguments
concerning his First Amendment claim by saying
only that his habeas corpus action stated sufficient
evidence to support his claim, without providing any
of the relevant evidence. This response -- which
included no specific facts whatsoever -- failed to
satisfy Johnson’s burden of demonstrating to the
district court that summary judgment was not
warranted. Barbour, 471 F.3d at 1225; Allen, 121
F.3d at 646.
Moreover, in his brief in this Court, Johnson
failed to brief the issue on appeal or raise any
argument as to how the district court erred in its
grant of summary judgment. See Access Now,
Inc., 385 F.3d at 1330. We add that Johnson
abandoned his right to appeal the district court’s
dismissal of claims against County of Paulding,
Georgia, Board of Commissioners for Paulding
County, Paulding County Sheriffs Department, and
the individual defendants in their official capacity
based on Eleventh Amendment sovereign immunity,
his Fifth, Sixth, Eighth and Fourteenth Amendment
claims, and state law claims. This is because he
failed to provide argument on the issues in his
initial brief. See Access Now, 385 F.3d at 1330; Mesa
Air Grp., 573 F.3d at 1130 n.7.
Accordingly, we affirm.

37a
Case: 18-14994 Date Filed: 07/12/2019
AFFIRMED.

A

38a
APPENDIX D
Case: 18-14994 Date Filed: 10/04/2019 Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-14994-AA

WILLIAM JOHNSON,
Plaintiff - Appellant,

versus
COUNTY OF PAULDING, GEORGIA,
BOARD OF COMMISSIONERS FOR PAULDING
COUNTY,
PAULDING COUNTY SHERIFF’S DEPARTMENT,
SHERIFF GARY GULLEDGE,
in his official and individual capacity,
OFFICER AL GONZALEZ,
in his official and individual capacity,
MAJOR SHELIA CRATON,

39a
in her official and individual capacity,

Defendants - Appellees.

Appeal from the United States District Court
for the Northern District of Georgia

ON PETITIONS FOR REHEARING
PETITION(S) FOR REHEARING EN BANC

AND

BEFORE: MARCUS, BRANCH, and GRANT, Circuit
Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Rehearing En Banc
is also treated as a Petition for Rehearing before the
panel and is DENIED. (FRAP 35, IOP2)
ENTERED FOR THE COURT:

UNITED STATES CIRCUIT JUDGE
ORD-42

